                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

                                                      CLOSEOUT MEMORANDUM

         Case Number: A03100056                                                                        Page 1 of 1



                  This case began in a proactive review of program income in which the university1 was selected
                  at random. Do'cumentation provided by the University in response to that review indicated
                  problems in the management of program income funds derived from a conference grant2, and
                  other issues related to allowable expenses, including compliance with the special conditions of
     I
                  FL26, and reimbursements of travel expenses of Federal employees.

                  The University reimbursed NSF for Federal employee travel, for conference meals, for program
                  income funds spent to support the travel of a University employee, and for wallowed expenses
                  incurred during a period of no-cost extension.


1)                The University put in place administrative changes:

                  1) Every PI and concordant departmental administrator that receives a grant in which FL 26
                  applies will meet specifically with a grant administrator to ensure that the requirements of FL26
                  are clear and are met.

                  2) Program income derived from conference and workshop grants will no longer be comingled
                  with non-Federal monies, in accounts without restrictions, and will henceforth be deposited in a
                  separate and grant-specific account with appropriate restrictions on use.



I                 3) The University provides a broad assurance of compliance with conference and travel grant
                  special conditions and program income regulations.


Il                Specific problems in the administration of this particular grant have been satisfactorily resolved.

                  Accordingly, this case is closed.




111                ' Redacted
11                  Redacted




         NSF OIG Form 2 (1 1/02)
